Supreme Court, U.S.
FILED

0 ORIGINAL

21-

No.

JUL 1 5 2021

86

OFFICE OF THE CLERK

&uprettte Court of tfje Unttefr &tate£
MIHRAN MELKONYAN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
COMES NOW PETITIONER MIHRAN MELKONYAN and respectfully moves this
Honorable Court for leave to proceed in forma pauperis, in accordance with the provisions of
Title 28, United States Code, Section 1915, and Rule 39 of the Rules of this Court.
The affidavit of Mihran Melkonyan in support of this motion is attached hereto.
Mr. Melkonyan sought leave to proceed in forma pauperis in the court below.
Mr. Melkonyan was granted leave to proceed in forma pauperis in the court below.

JUL 20 M

liSiUsS&gft

The statute under which Mr. Melkonyan was appointed counsel by the Eastern District of
California and the Court of Appeals for the Ninth Circuit was the Criminal Justice Act of 1964,
18 U. S. C. § 3006A. Therefore, in reliance upon Supreme Court Rule 39.1 and 18 U.S.C. §
3006A(d)(7), petitioner has not attached the affidavit which would otherwise be required.**
Presented herewith is Mr. Melkonyan’s Petition for Writ of Certiorari to the Court of
Appeals for the Ninth Circuit.
Mihran Melkonyan
Petitioner
72465-097
P.O. Box 9
Mendota, CA 93640
Date:

** Supreme Court Rule 39.1 provides:
A party seeking to proceed in forma pauperis shall file a motion for leave to do so,
together with the party's notarized affidavit or declaration (in compliance with 28 U.S.C.
§ 1746) in the form prescribed by the Federal Rules of Appellate Procedure, Form 4. The
motion shall state whether leave to proceed in forma pauperis was sought in any other
court and, if so, whether leave was granted. If the United States district court or the
United States court of appeals has appointed counsel under the Criminal Justice Act of
1964, 18 U.S.C. § 3006A, or under any other applicable federal statute, no affidavit or
declaration is required, but the motion shall cite the statute under which counsel was
appointed.” Id. (As Amended Jan. 27, 2003, eff. May 1, 2003.) (emphasis added)
18 U.S.C. § 3006A(d)(7) provides:
(7) Proceedings before appellate courts. If a person for whom counsel is appointed under
this section appeals to an appellate court or petitions for a writ of certiorari, he may do so
without prepayment of fees and costs or security therefor and without filing the affidavit
required by section 1915(a) of title 28. /c/(emphasis added)

"\
V

J
\r

/

/

General Docket
United States Court ofAppeals for the Ninth Circuit
Court of Appeals Docket #: 19-10026
USA v. Mihran Melkonyan
$$$$$$$$$$
02/06/2019
2
Criminal Justice Act electronic voucher created. (Counsel: Mr. Timothy
Edward Warriner for Mihran Melkonyan) [11181606] (BJK) [Entered: 02/06/2019 03:24 PM]

\

